HHS/OIG, Audit -"Review of Medicaid Drug Rebate Collections - State of Oklahoma,"(A-06-03-00044)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Collections - State of Oklahoma," (A-06-03-00044)
July 14, 2003
Complete
Text of Report is available in PDF format (413 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Oklahoma Health Care Authority (OHCA) had established adequate
accountability and internal controls over the Medicaid drug rebate program.  Our audit covered Medicaid drug rebates
through June 30, 2002.  However, the OHCA completed an information system conversion in December 2002, which resulted
in a new accounts receivable system.  Because of this change, we limited our review to the controls over cash receipts.
We found that OHCA had established adequate controls over cash receipts related to the drug rebate program, but inaccurate
data was transferred into the new accounts receivable system from the old system.  Until the records in the new accounts
receivable system are adjusted to accurately reflect the billing and payment history, the OHCA cannot be assured that all
rebates have been collected.  The OHCA agreed with our finding and recommendation.